Nos. 20-542, 20-574

In the Supreme Court of the United States
REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS PENNSYLVANIA SECRETARY OF
STATE, ET AL.,
Respondents.
JOSEPH B. SCARNATI, III, ET AL.
Petitioners,
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS PENNSYLVANIA SECRETARY OF
STATE, ET AL.,
Respondents.
On Petitions for Writs of Certiorari to the Pennsylvania Supreme Court
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Missouri
and Nine Other States as Amici Curiae in Support Petitioners in the above captioned
cases contains 5,068 words as determined by the word counting feature of Microsoft
Word, excluding the parts of the brief that are exempted by Supreme Court Rule
33.1(d).

November 9, 2020

Respectfully submitted,
s/ D. John Sauer
ERIC S. SCHMITT
Attorney General
D. John Sauer
Solicitor General
Counsel of Record

Jeff P. Johnson
Deputy Solicitor General
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
207 West High Street
P.O. Box 899
Jefferson City, MO 65102
John.Sauer@ago.mo.gov
(573) 751-8870
Counsel for Amici Curiae

